Date:                          August 22, 2002

MEMORANDUM FOR:                EMILY STOVER DeROCCO
                               Assistant Secretary for
                                Employment and Training



FROM:                          ELLIOT P. LEWIS
                               Deputy Inspector General
                                for Audit

SUBJECT:                       Audit of Treasure Island Job Corps Center Property Taxes
                               July 1, 1999 Through June 30, 2000
                               Report Number 02-02-210-03-370


We have completed an audit of the Treasure Island Job Corps Center (TIJCC) for the period
July 1, 1999 through June 30, 2000. The audit objective was to determine if any costs claimed
by Res-Care included municipal service fees or similar charges calculated on the basis of square
feet occupied. Such charges are equivalent to property taxes and, therefore, unallowable. Our
audit found no such unallowable charges. We are making no recommendations and no response
to this report is necessary.

If you have any questions concerning this report, please contact Richard H. Brooks, Regional
Inspector General for Audit, at (212) 337-2566.

Background

Job Corps was established in 1964 and is presently authorized under Title I, Subtitle C, of the
Workforce Investment Act of 1998. The overall purpose of the program is to provide
economically disadvantage youths aged 16 to 24 with the opportunity to become more
responsible, employable citizens. With annual funding more than $1 billion, Job Corps is the
largest Federal youth employment and training program. Job Corps provides total support for
participants including basic education and vocational classes; dental, medical and eye care;
social skills training; meals; recreational activities; counseling; student leadership activities; and
job placement services.

The Employment and Training Administration (ETA), awarded Contract Number
EA-002-8-09-06 to Res-Care, Inc., to operate the TIJCC for the period February 1, 1999 through
January 31, 2001, with three additional option years.
The TIJCC was a former Naval Station, operated by the Department of Navy. The center
consists of 11 buildings on a 36.5-acre complex located in Treasure Island, San Francisco,
California. Treasure Island is located at mid-span of the San Francisco Bay Bridge between the
cities of San Francisco and Oakland.

Objective

The audit objective was to determine if any costs claimed by Res-Care for the Treasure Island
Job Corps Center under Contract Number EA-002-8-09-06 included municipal service fees or
similar charges calculated on the basis of square feet occupied. Such charges are equivalent to
property taxes and, therefore, unallowable.

Scope and Methodology

We reviewed charges to utilities, and other facility maintenance costs claimed under Contract
Number EA-002-8-09-06 for the period July 1, 1999 through June 30, 2000, to determine if any
of these costs were equivalent to property taxes and, therefore, unallowable. We obtained an
understanding of the TIJCC internal controls through inquires with appropriate personnel,
inspection of relevant documentation, and observation of operations. The nature and extent of
our testing were based on the risk assessment.

We examined center operation expenses, general ledgers and supporting documentation,
including vouchers and invoices. We used judgmental sampling techniques to test individual
account transactions. We sampled $829,195 or 61.7 percent of reported utilities, fuel, and
maintenance expenses. We did not audit performance measures of TIJCC.

The audit was performed using criteria we considered relevant in evaluating the reasonableness,
allowability and allocability of claimed expenses. Criteria included Title 20 of the Code of
Federal Regulations, Federal contract cost principles set forth in the Federal Acquisition
Regulation, Part 31 and the Job Corps Policy and Requirements Handbook (PRH). Also, other
requirements in the contract were used as criteria in evaluating the allowability of claimed
expenses.

We conducted our audit in accordance Government Auditing Standards, issued by the
Comptroller General of the United States, and included such tests as we considered necessary to
satisfy the objectives of the audit. We conducted fieldwork from February 5 to
February 7, 2002, at TIJCC in San Francisco, California.

Audit Results

We found that Res-Care, Inc., did not claim municipal service fees or similar charges calculated
on the basis of square feet for the TIJCC during the period July 1, 1999 through June 30, 2000.
We are making no recommendations and no response to this report is necessary.
